GR-70-98-014
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
The Drug Court Improvement and
Enhancement Initiative to the
Superior Court of Delaware
Grant Number 95-DC-MX-0050
GR-70-98-014
 
August 14, 1998
 
* * * * *
EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grant
number 95-DC-MX-0050, awarded by the U.S. Department of Justice (DOJ) Office of Justice
Programs (OJP). The Superior Court of Delaware received a grant of $514,000 to improve and
expand its drug court. The grant project period was September 15, 1995 to March 31, 1997.
Project extensions through September 30, 1998 were granted by OJP. As of July 1, 1998, the
grantee had expended $407,426 in grant funds.
Our audit concentrated on, but was not limited to, the period
September 15, 1995 through July 1, 1998. We tested the accuracy and reliability of the
grantees accounting system, reviewed the general ledger, and determined if costs
charged to the grant were allowable, allocable, and reasonable.
For the purposes of this review, we used the Office of Management and Budget (OMB)
Circular A-110, Uniform Administrative Requirements for Grants and Other Agreements
with Institutions of Higher Education, Hospitals and Other Nonprofit Institutions; OMB
Circular A-122, Cost Principles for Nonprofit Organizations; and the OJP
Financial Guide.
Based on our audit, we found that the Superior Court of Delaware properly managed the
grant.


Costs charged to the grant were allowable, allocable, and reasonable.


The grant objectives outlined in the application were being achieved. 


Financial status reports and progress reports were submitted as required by the grant.

However, the Superior Court failed to account for and report $30,086 in program income.
Our Scope and Methodology section appears in Appendix II.
#####